RSGINAl

20n°5
3n ®l>e
Supreme Court of t&e fHniteb States;
ANITA LAUX, Petitioner
VS.

MENTOR WORLDWIDE, LLC, Respondent

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Attorney For Petitioner
Anita Laux, Pro Se
P. 0. Box 7212
Westlake Village, CA 91359
(805) 443-9909

'TTled
jut \ ^ ®

QUESTIONS PRESENTED
(1) Whether state-law claims against a medical device manufacturer, based on
duties that parallel federal requirements, preempted by the Medical Device
Amendments ("MDA"), 21 U.S.C. 360 et seq., to the Food, Drug, and Cosmetics
Act ("FDCA"), 21 U.S.C. 301 et seq.?

(2) Whether the FDA's Current Good Manufacturing Practices ("CGMPs"), 21
C.F.R. 820.1 et seq., citing specific CGMPs requirements 21 C.F.R. 820.1(c),
820.72 - 820.90, can support state-law claims based on duties that parallel, rather
than add to, federal requirements, will survive express preemption?

(3) Whether state-law claims against a medical device manufacturer, based on
duties that parallel federal requirements, under 21 U.S.C 360k(a), and 21 C.F.R.
808.1(d), are not preempted, premised that a complaint need only allege enough
facts to state a claim that is plausible on its face, to satisfy the Twomby/lqbal
pleading requirements, are sufficient to meet the specificity and plausibility
standards of Federal Rule of Civil Procedure 8(a)?

“I-

LIST OF PARTIES

iyf All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
1) Lauxv. Mentor Worldwide, LLC, No.2:16-cv-01026-ODW-AGR
U.S. District Court for the Central District of California
Judgment entered November 8, 2017.
2) Lauxv. Mentor Worldwide, LLC, No. 17-56832
U.S. Court of Appeals for the Ninth Circuit
Judgment entered November 26, 2019.

*

4

-It'

TABLE OF CONTENTS
Page
Questions Presented..........................................
Parties to the Proceeding...................................
Statement of Related Cases...............................

ii
ii

1

Opinions Below...................................................
Jurisdiction..........................................................
Constitutional and Statutory Provisions Involved

2
3-6

Statement of the Case........................................
1. A violation of Federal Law.....................

7-8

9
9-12

2. General Device Specific Regulations CGMPs

13

3. ORDER 9th Cir. Ruled Petitioner Laux's Appeal is Non-Frivolous

4. District Denied Plaintiff to Amend Complaint, Zero Previous AMD...13-16
5. Expert Testimony Transcripts of Dr. Kolb, MD and Dr. Blais, PhD
Filed at District. Not Missing and not Stricken from Record.......

16-22

Reasons For Granting the Petition for a Writ of Certiorari.................................... 23
1. Circuit Split, Whether CGMPs Will Support a Parallel State-Law Claims
To Survive Express Preemption
23
2.

General Device Specific FDA Regulations CGMPs; Bausch v. Stryker,
Corp, (7th Cir. 2010) and Bass v. Stryker, Corp., (5th Cir.2012)........

24

3.

Narrow Gap, 21 U.S.C. 360k(a), 21 C.F.R .808.1(d), Restat 2d of Torts,
402A
24-27

4..

National Importance

28

Conclusion

29

•'III'

INDEX TO APPENDICES
APPENDIX A

APPENDIX B

APPENDIX C

APPENDIX D

Decision of the U.S. Court of Appeals for the 9th Circuit,
Judgment entered 11/26/19..........................................
Decision of the U.S. District Court of Central District of
California, Los Angeles. Judgment entered 11/8/17....

1-3

4-13

Decision of the U.S. Court of Appeals 9th Cir. Denying a
Timely Filed Petition For Rehearing En Banc and Panel
Rehearing. Order entered on February 14, 2020..........

14

Decision of the U.S. Court of Appeals 9th Cir. Granted
Extension of Time to File Petition For Rehearing En Banc.
Order entered December 9, 2019.....................................

15

APPENDIX E

Appellant Anita Laux's Petition For Rehearing En Banc and
Panel Rehearing. Filed on January 10, 2020, 9th Cir,
16-44

APPENDIX F

Decision of the U.S. Court of Appeals 9th Cir.
ORDER finding Appellant Anita Laux's appeal is Non-Frivolous.
The Order to show cause is therefore discharged.
Order entered on June 27, 2018, 9th Cir
45-46

APPENDIX G

Petitioner Anita Laux's COMPLAINT filed with attached
Exhibit A "Failure Analysis Report", filed on 12/29/2015.
Respondents Removed to district court on 2/12/16
47-107

APPENDIX H

Expert Testimony of Dr. Kolb, MD, deposition transcripts,
Filed at district court on 2/24/17,8/4/17, 9/5/17
108-151

APPENDIX I

Expert Testimony of Dr. Blais, PhD, deposition transcripts, filed
at district court on 2/24/17,8/4/17/9/5/17
152-171

-IV-

INDEX TO APPENDICES (Continued)
APPENDIX J

Published Peer-Reviewed Articles, "Microbial Growth Inside
Saline-Filled Breast lmplants"and "Fungal Growth Inside Saline
-Filled Implants", Filed Dist, 9/5/2017, [80-1,80-3]
172-173

APPENDIX K

Plaintiff/Petitioner Anita Laux's Memorandum of Points and
Authorities in Support of Motion for Leave to Amend
Complaint, Pursuant to FED. R. Civ. P. 15(a)(2), and Fed. R. Civ.
P. 8(a), Twombly/lqbal Pleading, Filed Dist. 7/28/17.... 174-186

APPENDIX L

Plaintiff's Opposition To Defendant's Objection Document
87, Opposing Mentor's Motion to Exclude the Opinions
of Experts, Filed at District, 9/11/17
187-192

APPENDIX M

Declaration of Anita Laux In Support of Opposition To
Motion For Summary Judgment, PURSUANT FED. R.
CIV. P.56....................................................................... 193-201

APPENDIX N

ORDER Supreme Court, dated March 19, 2020, Deadline to
File any Petition For Writ of Certiorari, Extended 150 days...202

APPENDIX O

21 U.S.C. 360k

203-204

APPENDIX P

21 C.F.R. 808.1, 808.1(d)

205-211

APPENDIX Q

CGMPs 21 C.F.R. 820.1-820.200; Specific 820.1(c),
820.72-820.90........................................................... 212-227

APPENDIX

21 U.S.C. 360e(d)(2)

228-231

Restatement (Second) of Torts, 402A

232-243

R

APPENDIX S

-V-

INDEX TO APPENDICES (Continued)
APPEN DIX

APPENDIX

T

U

Bausch v. Stryker Corp., 630 F.3d 546, 554-556,
(7th Cir. 2010)...................................................

244-276

Bass v. Stryker Corp., 669 F.3d 501,
(5th Cir. 2012)................................

277-300

-VI-

TABLE OF AUTHORITIES
CASES

PAGE

Stengel v. Medtronic, Inc.
(2013) 704 F. 3d 1224,1228

9

Bausch v. Stryker Corp.
630 F.3d 546, 554-556 (7th Cir. 2010)

9,10,13,14,15,17,19,24,26

Weber v. Allergan, Inc., No. 13-17017, (9th Cir. 2015)

10,11

Weber v. Allergan, Inc., 940 F.3d 1106,1111 (9th Cir. 2019)

10,11

Ashcroft v. Iqbal
(2009), 556 U.S. 662, 678

11

Erickson v. Boston Sci. Corp.
846 F. Supp.2d 1085,1092, (C.D. Cal. 2011)

12

Foman v. Davis, 371 U.S. 178,182 (1962)

14

Morales, 108, F. 3d 1031,1035 (9th Cir. 1997)(en banc)

14

Flowers v. First Hawaiian Bank, 295 F.3d 966,976 (9th Cir. 2002)

15

Bass v. Stryker Corp., 669 F.3d 501 (5th Cir. 2012)

17,24

Medtronic, Inc., Sprint Fidelis Leads, (8th Cir. 2010)

24

Wolicki-Gables v. Arrow International, (11th Cir. 2011)

24

Medtronic v. Lohr, 518 U.S. 470 (1996)

24

Riegel v. Medtronic, 552 U.S. 312,128 S. Ct .999 (2008)

24

-vu4 «

TABLE OF AUTHORITIES — Continued

STATUES AND RULES
21 U.S.C. 360 et seq
21 U.S.C 360k
21 U.S.C. 360k(a)
21 U.S.C. 301 et seq
21 C.F.R. 820.1 et seq
21 C.F.R. 820.1(c)

i/7,25
3,24

i,3,7,9,14,26
i,7,25

i,3,7,18
i,4,7,9,17,18,19,26

21 C.F.R. 820.72

1,4,7,17,18,19,26

21 C.F.R. 820.75

,4

21 C.F.R. 820.75

4

21 C.F.R. 820.80

,4

21 C.F.R. 820.90

i,5,7,9,17,18,19,26

21 C.F.R. 808.1(d)

i,3,7,14,26

21 C.F.R. 820.100

12

21 C.F.R. 820.70

12

21 C.F.R. 820.90

12

21 U.S.C. 360e(d)(2)

15

TABLE OF AUTHORITIES —Continued
RULES
Supreme Court Rule 10(a),(c)

23,27

Fed. R. Civ. P. Rule 8(a)

1,7,11,14
...14

Fed.R. Civ. P. 15(a)
Fed. R. Civ. P. 15(a)(2)

14

Fed. R. Civ. P. 56(e)

16

OTHER
Restatement (Second) of Torts, 402A
LexisNexis(Copyright (c) 1965, The American Law Institute)

-It-

5,6„11,27.232-243

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

sA For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix. A
the petition and is

to

bA reported at Laux v. Mentor Worldwide, LLC, No. 17-56832 (9th 0^2019).

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix B__to
the petition and is
tyf reported at Laux v. Mentor Worldwide, LLC, 295 F. Supp.3d 1094«(C.D. Cal. 2017).

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was November 26,2019
[ ] No petition for rehearing was timely filed in my case.
(yf A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: February 14,2020
, and a copy of the
order denying rehearing appears at Appendix JO.
An extension of time to file the petition for a writ of certiorari was granted
(date) on March 19, 2020
to and including July 13,2020
(date)
in Application No. 202 A ppendix n ***see Supreme Court ORDER on March 19,2020,
***ln light of COVID-19, extended deadline to file any petition for writ of certiorari is extended to 150 days.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
--------------------------------- , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

z

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

21 U.S.C. 360k
(a) General Rule[.] Except as provided in subsection (b), of this section, no
State or political subdivision of a State may establish or continue in effect
with respect to a device intended for human use any requirement(1) which is different from, or in addition to, any requirement applicable
under this chapter to the device, and
(2) which relates to the safety or effectiveness of the device or to any other
matter included in a requirement applicable to the device under this
chapter.
(b) Exempt Requirements. Upon application of a State or a political
subdivision thereof, the Secretary may, by regulation promulgated after
notice and opportunity for an oral hearing, exempt from subsection (a) of
this section, under such conditions as may be prescribed in such regulation,
a requirement of such State or political subdivision applicable to a device
intended for human use if -[See lengthy provision citation in Appendix 0].

21 C.F.R. 808.1(d)
(d) State or local requirements are preempted only when the Food and
Drug Administration has established specific counterpart regulations or
there are other specific requirements applicable to a particular device under
the act, thereby making any existing divergent State or local requirements
applicable to the device different from, or in addition to, the specific Food
and Drug Administration requirements. There are other State or local
requirements that affect devices that are not preempted by section 521 (a)
of the act because they are not "requirements applicable to a device" within
the meaning of section 521 (a) of the act. The following are examples of
State or local requirements that are not regarded as preempted by section
521 of the act:
[See lengthy provision citation in Appendix P].

21 C.F.R. 820.1
(a) Applicability. (1) Current Good Manufacturing Practice (CGMP)
requirements are set forth in this quality system regulation.
[See lengthy provision citation in Appendix Q].

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(CONTINUED)
21 C.F.R. 820.1(c)
(c) Authority. Part 820 is established and issued under authority of sections
501, 502, 510, 513, 514, 515,518, 519, 520, 522, 701, 704, 801, 803 of the
act (21 U.S.C. 351, 352, 360, 360c, 360d, 360e, 360h, 360i, 360j, 3601, 371,
374, 381,383). The failure to comply with any applicable provision in this
part renders a device adulterated under section 501 (h) of the act. Such a
device, as well as any person responsible for the failure to comply, is subject
to regulatory action.
[See lengthy provision citation in Appendix Q].
21 C.F.R. 820.72
(a) Control of inspection, measuring, and test equipment. Each
manufacturer shall ensure that all inspection, measuring, and test
equipment, including mechanical, automated, or electronic, measuring,
and test equipment, is suitable for its intended purposes and is capable
of producing valid results. Each manufacturer shall establish and maintain
procedures to ensure that equipment is routinely calibrated, inspected,
checked, and maintained. The procedures shall include provisions for
handling, preservation, and storage of equipment, so that its accuracy and
fitness for use are maintained. These activities shall be documented.
[See lengthy provision citation in Appendix Q].
21 C.F.R. 820.75
(a) Where the results of a process cannot be fully verified by subsequent
inspection and test, the process shall be validated with a high degree of
assurance and approved according to established procedures.
[See lengthy provision citation in Appendix QJ.
21 C.F.R. 820.80
(a) General. Each manufacturer shall establish and maintain procedures
for acceptance activities. Acceptance activities include inspections, tests,
or other verification activities.
[See lengthy provision citation in Appendix Q].

4

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(CONTINUED)
21 C.F.R. 820.90
(a) Control of nonconforming product. Each manufacturer shall establish
and maintain procedures to control product that does not conform to
specified requirements. The procedure shall address the identification,
documentation, evaluation, segregation, and disposition of nonconforming
product. The evaluation of nonconformance shall include a determination
of the need for an investigation and notification of the persons or
organization responsible for the nonconformance. The evaluation and any
investigation shall be documented.
(b) Nonconformity review and disposition. (1) Each manufacturer shall
establish and maintain procedures for rework, to include retesting and
reevaluation of the nonconforming product after rework, to ensure that the
product meets its current approved specifications.
[See lengthy citation in Appendix Q].

OTHER PROVISION INVOLVED
Restat 2d of Torts, 402A
Special Liability of Seller of Product for Physical Harm to User or Consumer
(1) One who sells any product in a defective condition unreasonably dangerous to
the user or consumer or to his property is subject to liability for physical harm
thereby caused to the ultimate user or consumer, or to his property, if
(a) the seller is engaged in the business of selling such a product, and
(b) it is expected to and does reach the user or consumer without substantial
change in the condition in which it is sold.
(2) The rule stated in Subsection (1) applies although
(a) the seller has exercised all possible care in the preparation and sale of his
product, and

5

OTHER PROVISION INVOLVED -Continued

(b) the user or consumer has not bought the product from or entered into any
contractual relation with the seller.
(see lengthy citation in Appendix S)
LexisNexis. Copyright (c) 1965, The American Law Institute

(o

STATEMENT OF THE CASE
Petitioner Anita Laux's case presents significant questions:
(1) Whether state-law claims against a medical device manufacturer, based on
duties that parallel federal requirements, preempted by the Medical Device
Amendments ("MDA"), 21 U.S.C. 360 et seq., to the Food, Drug, and Cosmetics
Act ("FDCA"), 21 U.S.C. 301 et seq.?
(2) Whether the FDA's Current Good Manufacturing Practices ("CGMPs"), 21
C.F.R. 820.1 et seq., citing specific GMPs requirements 21 C.F.R. 820.1(c), 820.72820.90, can support state-law claims based on duties that parallel, rather than
add to, federal requirements, will survive express preemption?
(3) Whether state-law claims against a medical device manufacturer, based on
duties that parallel federal requirements, under 21 U.S.C. 360k(a) and 21 C.F.R.
808.1(d) are not preempted, premised that a complaint need only allege enough
facts to state a claim that is plausible on its face, to satisfy the Twombly and Iqbal
pleading requirements, are sufficient to meet the specificity and plausibility
standards of Federal Rule of Civil Procedure 8(a)?

n

A central issue in Laux's petition is whether federal law preempts product liability
claims against a manufacturer of a class III medical device where a patient claims
she was harmed with life-threatening and permanent injuries.
Laux alleged a state law claim for strict liability (manufacturing defect) arising
out of injuries Laux suffered after being surgically implanted on December 30,
2005, with

silicone inflatable saline-filled breast implants manufactured by

Mentor. The implants were surgically removed on May 23, 2014. The breast
implants at issue are a Class III medical device approved by the Federal Drug
Administration (FDA") under the premarket approval process of the Medical
Device Amendments ("MDA") to the Food, Drug, and Cosmetic Act. The breast
implant valves allegedly leaked saline fluid and entrapped Ms. Laux's scar tissue
into the valves, with the scar tissue reaching deeply into the valve orifices, caused
the valves to be unable to securely seal to prevent leakage.
Causes of Action: Count One- Products Liability (Manufacturing Defect);
Count Two- Negligence;
Count Three- Breach of Warranty.
Laux has pleaded a Cause of Action under state law claims based on duties that
parallel federal requirements on manufacturing defects, that are neither
different, nor add to federal requirements, to avoid express preemption.

?

Under California tort law, 21 U.S.C. 360k(a) does not prevent a state from
providing a damages remedy for claims premised on a violation of FDA
regulations; the states duties in such a cases "parallel", rather than add to, federal
requirements." Stengel v. Medtronic, Inc. (2013) 704 F3d 1224,1228.
The implant shells, valves, and valves orifices and valves caps, were not
manufactured in accordance to Mentor's own specifications; the shells, valves,
and valve orifices and valve caps were not manufactured in accordance with the
FDA's Quality Systems Regulations and Current Good Manufacturing Practices, 21
C.F.R. 820.1 et seq., "requires each manufacture to put in place processes to test
products for compliance with product specifications, to check and document
compliance with product specifications before products are accepted for sale and
use, and to identify and control nonconforming products," thereby rendering the
device "adulterated." Plaintiff Laux's complaint alleges that the Mentor saline
breast implants had failed to comply with section 21 C.F.R. 820.90 regarding
nonconforming products, and that the product implanted in plaintiff Laux failed to
comply with product specifications as approved by the FDA through the
premarket approval process. Said defects violated Mentor's duties, which shows
a violation of federal law, which parallel state law claims. See Bausch v. Stryker
Corp, 630 F.3d 546 (7th Cir. 2010)(citing 21 C.F.R. 820.1(c), 820.72-820.90). App.

55 and App. 212-227. The district and 9th Cir. erroneously overlooked Laux's
specific pleadings of the FDA's Current Good Manufacturing Practices.
The District and 9th Cir. erroneously held that Laux's state law claims are
expressly preempted under the MDA to the FDCA. However, Seventh Circuit said,
"Federal Law is clear: for manufactures of a Class III medical device, the Quality
System Regulations and Current Good Manufacturing Practices adopted by the
FDA under its delegated regulatory authority are legally binding requirements."
See Bausch v. Stryker Corp., 630 F.3d 546, 554-556 (7th Cir. 2010).
On November 26, 2019, the 9th Cir. erroneously dismissed Laux's case based on
express preemption. Laux's case should not be expressly preempted based on the
recent ruling of Weber v. Allergan, Inc., 940 F.3d 1106,1111 (9th Cir. 2019). Laux
case is distinguishable from the Weber v. Allergan, Inc., 940 F.3d 1106,1111 (9th
Cir. 2019). Weber had silicone breast implants, alleged silicone gel bleed. Weber
did not have valves on her breast implants, as Laux did have valves on her breast
implants. The Weber implants were manufactured by Allergan, and the Laux
implants were manufactured by Mentor. The manufacturing process for siliconegel implants compared to saline-filled implants with valves, have different
manufacturing processes from one another.

Laux's implants had alleged

defective valves leaking saline with evidence of scar capsule tissue stuck inside

10

the implant valves. Laux has pleaded a Twombiy and Iqbal pleading standard.
App. 174-186. Whereas, in Weber's oral argument (9th Cir. 2019), an exception
to Riegel dissent was argued. The lower courts erred in not distinguishes the
major difference between Weber and Laux.
It is significantly important for the courts to know that Weber has two different
appeal cases: Weber v. Allergan, Inc. 940F.3d 1106 (9th Cir. 2019) and another
appeal: Weber v. Allergan, Inc. No. 13-17017, (9th Cir. 2015). In 2015, the 9th
Cir. held that the allegations in Weber's complaint in 2015, are sufficient to meet
the particularity and plausibility standards of Federal Rule of Civ. P. 8(a). See
Ashcroft v. Iqbal, 556 U.S. 662, 678, (2009). Laux's case is similar to Weber's 9th
Cir. 2015 pleadings of Twombiy and Iqbal, where the 9th Cir. opinioned that
Weber had successfully pleaded parallel state-law claims that were not
preempted. See Weber v. Allergan, Inc., 13-17017. App. 44.
Laux alleges, Respondent/Defendant (Mentor) had duties and obligations set
forth in various sections of the Restatement (Second) of Torts, including but not
limited to 402A. Restatement (Second) of Torts, 402A, cited on Laux's original and
only Complaint. App. 55. Strict liability can hold a manufacturer liable for the
defective condition of the product that is unreasonably dangerous. App. 234.
State law tort claims that parallel federal requirements are not preempted by the

II

MDA. To properly plead parallel claims to survive preemption, a plaintiff must
allege facts (1) showing an alleged violation of FDA regulations or requirements
related to the device, and (2) establishing a casual nexus between the alleged
injury and the violation, Erickson V. Boston Sci. Corp. (C.D. Cal. 2011), 846 F.
Supp.2d 1085, 1092. The district and 9th Cir. mistakenly asserts that Laux failed
to identify any specific, federal required specification or requirements that
Mentor violated in manufacturing her Silicone Inflatable Saline-Filled implants.
Laux alleges violations of CGMPs requiring manufacturers to:

document all

Corrective Action and Preventative Actions taken by the Manufacturer to address
non-conformance and other internal quality control issues, 21 C.F.R. 820.100 et
seq., and establish Quality Management System procedures to assess potential
causes of non-conforming products and other quality problems, 21 C.F.R. 820.70
et seq. and 21 C.F.R. 820.90 et seq. These are all FDA regulations that dictate how
a manufacturer must handle the nonconformance of an approved device. While
the complaint does not cite a specific FDA warning regarding these violations,
Laux has alleged enough factual support to plead a violation of these regulations,
particularly by showing that the injury caused by the product in Laux had to have
come from a nonconforming product. Laux's expert Dr. Blais, PhD, specifically
demonstrates a product that does not conform, as documented in his Failure
\%

Analysis Report and in his testimony transcripts filed at district in which Dr. Blais'
findings of mold, using a microscope, identified aspergillus family, which is a
genus of over two-hundred mold species inside Laux's implants and Laux's scar
capsule tissue invading the valves, and scar tissue reaching deeply into the valve
orifices. The manufacture of the valves on the implants were allegedly "dented in
valves" with debris stuck in the valves where the saline leaked out as expert Dr.
Kolb, MD, testified. Expert Dr. Blais, PhD, testified the valves were "caved-in"
with the valve cap undersized in relation to the valve orifice which was oversized
with Laux's scar tissue stuck in the valves causes the valves to leak which led to
mold identified as asperguillus family (a genus consisting of over two-hundred
mold species), inside Laux's breast implants.
On June 27, 2018, the 9th Cir. filed an ORDER stating that Appellant Laux has
demonstrated that this appeal involves non-frivolous issues. App. 45-46. The
Order to show cause is therefore discharged. 9th Cir. granted Laux permission to
proceed forward with appeal.

The district court erred in denying Ms. Laux's

motion to amend complaint. Laux's motion to amend complaint would not have
caused an undue delay,

nor been futile. Laux has zero previously amended

complaints. Here in Laux's case, as in Bausch v. Stryker, the 7th Cir. opinioned the
district court erred in denying Bausch to leave to amend the complaint was an

IS

abuse of discretion. App. 274. "As a general matter, Rule 15, ordinarily requires
that leave to amend be granted at least once when there is a potential curable
problem with the complaint or other pleading. A Plaintiff is entitled to amend the
complaint once as a matter of right, Fed. R. Civ. P. 15(a), and the court should
"freely give leave [for a party to file an amended complaint] when justice so
requires." Fed. R. Civ. P. 15(a)(2). Amendment would not be futile. See Foman v.
Davis, 371 U.S. 178, 182 (1962). App. 275. " A district court abuses its discretion
when it bases its decision on an erroneous view of the law or a clearly erroneous
assessment of the facts." United States v. Morales, 108 F.3d 1031, 1035 (9th Cir.
1997)(en banc). District court abused its discretion in denying plaintiff Laux leave
to amend complaint when Laux has identified the standards she believes the
manufacture of her implants violated, thereby would adequately plead parallel
state-law claims under 21 U.S.C. 360k(a) and 21 C.F. R. 808.1(d). See 21 C.F.R.
820.1 et seq.; Bausch v. Stryker Corp. 630 F.3d 546 (7th Cir. 2010). App. 182.
Laux filed her Motion to Leave to Amend Complaint, as she has identified
additional facts she can plead that if added to her complaint would satisfy the
Twombly and Iqbal pleading standard, under Fed. R. Civ. P. 8(a). See App. 174186. Laux's original and only complaint should have served the purposes of Rule
8, stating a claim for relief that was "plausible on its face" as required by Iqbal and

14*

Twombly. Courts give special consideration to pro se litigants requesting leave to
amend. Flowers v. First Hawaiian Bank, 295 F.3d 966, 976 (9th Cir 2002). App.
179. A pro se litigant is entitled to notice of the complaints deficiencies and an
opportunity to amend prior to dismissal. Laux could have amended the issue on
the original complaint that alleges not only violations of "regulatory" standards,
but also violations of "industry standards" that are different from or in addition to
the federal regulatory standards. Since the district court abused its discretion in
denying Laux, pro se, her right to amend complaint, the cited 21 U.S.C. 360e(d)(2)
on complaint would have been excluded from Laux's complaint. Laux's complaint
was filed by Laux's former attorney, who represented Laux from 12/2015 to
2/2017. Laux declares that if she was given the right to amend her complaint, she
could have excluded the PMA clause of 21 U.S.C. 360e(d)(2), because that claim
would be preempted under section 360k. Here in Laux's case, as in Bausch v.
Stryker, App. 268, that 7th Cir. opinioned that "The only significant issue we see
with the original complaint is it alleges not only violations of "regulatory"
standards, but also violations of "industry standards" that are different from or in
addition to the federal regulatory standards, those claims would be preempted
under section 360k. Yet complaints that combine legally valid and invalid claims
are common. When a complaint asserts claims that are legally valid and those

15

that are not, the correct judicial response is not to dismiss the complaint, let
alone with prejudice." App. 269.

As here in Bausch's case, Laux should have

been granted leave to amend complaint to try to fix any deficiencies. Laux's case
is based on merits and the 9th Cir. ruled Laux's case in non-frivolous. This shows
district court abused its discretion in denying Laux her entitlement to amend
complaint. Laux has zero previous amended complaints.
The district and appeals court erroneously overlooked Laux's expert testimony
transcripts filed at district court.

Laux's expert testimony transcripts were

presumed to be missing from district record. However, most profoundly, Ms.
Laux located the expert witnesses testimony transcripts filed at district court that
includes Dr. Kolb, MD and Dr. Blais, PhD, in which experts testimonies shows
that Laux has raised a genuine dispute of material fact. The district and 9th Cir.
erroneously overlooked the nonmoving party [Laux] did produce specific evidence
to show that a genuine dispute exists. Fed. R. Civ. P. 56(e). In addition, Ms. Laux
has raised a genuine issue of material fact as Ms. Laux has preserved her actual
breast implants as evidence that shows the implant valves have entrapped Ms.
Laux's scar capsule tissue inside the valves, reaching deeply into the valve orifices.
Laux entered her actual evidence of implants into discovery at district. Plaintiff
Laux alleged that the Mentor saline breast implants were adulterated due to

1 te>

manufacturing practices of a non-conformance product under 21 C.F.R. 820.90.
App. 222-223. Said defects violated Mentor's duties, which shows a violation of
federal law, which parallel state law claims. Therefore, Laux's state law claims are
not expressly preempted under the Medical Device Amendments ("MDA") to the
Food, Drug, and Cosmetic Act. Laux has pleaded general device specific CGMPs
21 C.F.R. 820.1(c) 820.72-820.90. App. 55. See Bausch v. Stryker Corp. App.244276 and Bass v. Stryker Corp. App. 277-300, in which the 7th Cir. Court of Appeals
and the 5th Cir. Court of Appeals opinioned that CGMPs are sufficient in pleading
parallel state law claims that are not preempted, to the extent they are based on
manufacturing defect claims.
At district court, Plaintiff Laux's Complaint was filed with documents [Failure
Analysis Report] attached to the Complaint. App. 47-107. Documents attached to
the complaint are critical and are consistent with pleadings and consistent with
filed expert testimony transcripts. App. 108-171. And, are consistent with filed
published peer-reviewed articles. App. 172-173. The aforementioned documents
are shown to have a direct correlation between the alleged manufacturing
defects on the Mentor breast implant valves, in which the valves entrapped Ms.
Laux's scar capsule tissue into the valves and the scar capsule tissue reaching
deeply into the valve orifices, caused the valves to leak, in addition to the

mismatched oversized valve orifices in relation to the undersized valve caps,
leaked the saline fluid, which led to Ms. Laux's injuries.

Expert Dr. Blais, PhD

testified that Ms. Laux's implants were examined under a microscope where Dr.
Blais identified "aspergillus" which is a genus of over two-hundred mold species
inside Ms. Laux's implants. App. 154-155. App. 73.
The implant leaked not just one way, but in both directions, and whatever is in
the implant would get out into the breast.

Dr. Blais testified, Yes.

Dr. Blais

testified he told the FDA about implants leaking in both directions, before the
PMA approval. App. 165. Dr. Blais testified he does not know if the FDA credited
his theory or not. The fact is they [FDA] were informed. App. 165. Dr. Blais
testified that the FDA approved the protocol to manufacture Ms. Laux's implants,
but they did not approve the product that Ms. Laux got. App.165.

The Mentor

breast implants were not manufactured in accordance with the FDA's Quality
System Regulations and Current Good Manufacturing Practices, 21 C.F.R. 820.1, et
seq., 820.1(c), 820.72-820.90; which among other things "require each
manufacture to put in place processes to test products for compliance with
product specifications, to check and document compliance with product
specifications before products are accepted for sale and use, and to indentify and
control nonconforming products," thereby rendering the device "adulterated."

i?

App. 55. See, e.g., Bausch v. Stryker Corp., 630 F.3d 546 (7th Cir. 2010)(citing 21
C.F.R. 820.1(c), 820.72-820.90. App. 55.

The Mentor Saline Breast Implants

contained manufacturing defects when they left the Defendants' possession, to
wit: "Errors occurred in the formulation of the shells and the way in which they
were cured..."; Mechanical defects were obvious on cursory inspection"; There
was an "ill-fitting valve cap on both implants, which self-expelled from the valve
orifice"; "A competent quality assurance protocol would have noted the defects
are rejected the implants"; "Explanted mammary implants with deviant
fabrication characteristics are found in significant quantities, raising concerns
about manufacturing and prevailing quality assurance practices";

Both of Ms.

Laux implants embody all of the above noted problems and most probably leaked
from the outset"; "The examination [performed by expert Dr. Blais, PhD [App. 64107]), also revealed multiple fabrication errors including deformed parts, an
oversize valve orifice and undersize valve cap"; "[N]either of the valves on Ms.
Laux's implants had the capacity to securely retain the fluid within the shells and
had

no ability to protect the valve mechanism from

capsular tissue

invasion";..."Tissue invasion of the valve mechanism is a sequela of faulty or
deformed valve components, as demonstrated for both of Ms. Laux's implants."
On Dr. Blais' testimony transcripts filed at district [App. 156], Mentor asked Dr.

Blais "Are you familiar with the phenomenon where after placement of breast
implants a tissue capsule forms around the implants?"

Dr. Blais said, "Yes".

Mentor said "Okay. Are you familiar with that there can be tissue ingrowth into
the valves?" Dr. Blais testified, "Only if the valve is faulty." "In order for an
object or entity to penetrate the implant, there must be a breach." App. 157.
Furthermore, Dr. Blais' Failure Analysis Report" examination findings on Ms.
Laux's scar capsule tissue had invaded the valves reaching deeply in the valve
orifice. App. 74. "Typically, pannus [scar capsule tissue], forms from the wall of
the capsule and ultimately encompasses the valve cap strap. If the valve cap does
not reliably close the valve orifice, pannus [scar capsule tissue] then invades the
valve system. For a correctly manufactured implant where the valve cap is secure
and where the valve cap lies snugly against the shell surface, there would be no
space for pannus to grow and embedment of the valve cap in pannus would be
improbable." App. 74.
Expert Dr. Blais' Failure Analysis Report was attached to Ms. Laux complaint filed
at district. App. 47-107.
The 9th Cir. denied Mentor their motion to strike's Ms. Laux's experts testimonies
that were quoted on Appellant Ms. Laux's Opening Brief, filed on 12/6/2018,
[docket 25-1, 25-2], 435 pages filed, zero deficiencies.

Z0

Ms. Laux's expert Dr. Kolb, MD, testified that both of Ms. Laux's implants were
obviously leaking and debris stuck inside the valves and that the valves are
defective. App. 126.
The valve is not right. There's fluid missing. There's stuff floating in the implants.
That is not normal. App. 127.

Dr. Kolb testified that she certainly saw debris,

which she knows to be a breeding ground for mold; is that right? "That's correct."
App. 139 - 140. Dr. Kolb testified that Ms. Laux's implants had defective valves
because there's tissue ingress into the valves. App. 129.
Dr. Kolb testified that through her clinical observation and clinical experience
that

Mentor's valves on saline implants are defective and allow ingress and

egress of fluid and materials. App. 133.

Dr. Kolb's clinical observation and

clinical experience are consistent with Dow Corning engineering data regarding
the Mentor implants valve's and shells. Dow Corning studied what the shell is
made of. And it starts to disintegrate in eight to ten years. And this is exactly
what we see in terms of this patient [Laux] because she didn't have a history of
trauma...There was internal debris in the implants as a result of defective valves,
which lead to the patient's fibromyalgia and biotoxin disease. App. 136-137. Dr.
Kolb testified, "Well, but we see a correlation between how much stuff is in that
valve and how leaky the implants are." App. 150. Mentor said the tissue ingrowth

2/

into the valve is a thing that can happen through nobody's fault. However, Dr.
Kolb testified, "Right. Except that if the patient-except if that defect leads to a
leak, not a leak where the implant deflates, but just an ability of the mold to get in
there and grow and be a little bit leaky so it can get out, then the patient can get
sick. App. 150.
The above specific manufacturing defects that Expert Dr. Kolb, MD opinioned
through her filed testimony transcripts are consistent with Dr. Blais', PhD
testimony transcripts [App. 152-171], filed at district, stating that the Mentor
valves were manufactured in a defective condition that are unreasonably
dangerous, and said defects are in direct correlation

with published peer-

reviewed articles "Microbial Growth Inside Saline-Filled Breast Implants" and
"Fungal Growth Inside Saline-Filled Implants". App. 172-173.

22.

REASONS FOR GRANTING THE PETITION

Pursuant to Supreme Court Rule 10(a)(c): Considerations governing review on
writ of certiorari:
• (a) a United States court of appeals has entered a decision in conflict with
the decision of another United States court of appeals on the same
important matter; has decided an important federal question in a way that
conflicts with a decision by a state court of last resort; or has so far
departed from the accepted and usual course of judicial proceedings, or
sanctioned such a departure by a lower court, as to call for an exercise of
the Court's supervisory power;
• (c)

a state court or a United States court of appeals has decided an

important question of federal law that has not been, but should be, settled
by the Court, or has decided an important federal question in a way that
conflicts with relevant decisions of this Court.
There is a Circuit Split whether the FDA's Current Good Manufacturing
Practices can support a state-law claim that parallel federal requirements, that
will survive express preemption.

A circuit split supports granting of this

petition. Supreme Court Rule 10(a)(c).

The circuit split between the appellate courts, whether the Current Good
Manufacturing Practices will support a parallel state-law claim surviving express
preemption.
The Fifth and Seventh Circuits have held that a common law claim premised on a
generally applicable requirement or industry-wide regulation survives express
preemption. See Bass v. Stryker Corp, (5th Cir. 2012,) and Bausch v. Stryker Corp,
(7th Cir. 2010). App. 244-278. and App. 277-300.
In contrast, the Eighth and Eleventh Circuits, have expressly preempted claims
premised on an industry-wide regulation and have instead held that the
requirement be specific to the device in question. See In re Medtronic, Inc.,
Sprint Fidelis Leads, (8th Cir. 2010), and Wolicki-Gables v. Arrow International,
(11th Cir. 2011).
Under California tort law 21 U.S.C. 360k(a) does not prevent a state from
providing a damages remedy for claims premised on a violation of FDA
regulations; the state duties in such a case "parallel"; rather than add to, federal
requirements."
In the Supreme Court rulings

in Medtronic v. Lohr, and in Riegel v. Medtronic

fell on different sides of the line between the two types of FDA review for medical
devices, The Court correctly noted that "(n)othing in the 360k denies [the state]

the right to provide a traditional damages remedy for violations of common-law
duties when those duties parallel federal requirements." Since Riegel, various
circuit have addressed the issue of whether federal law preempts state law claims
against medical device manufacturers that "parallel" federal requirements,
without imposing any additional requirements.
The Riegel court discussed a parallel requirements exception to the general rule
of preemption. This parallel requirement exception is far from clear. Which state
law claims survive preemption under the parallel requirement exception? The
preemption doctrine created a narrow gap. a two-step analysis:
(1) the alleged conduct must violate the FDCA, and
(2) the plaintiff must have a cause of action under state law independent of the
FDCA.
Petitioner Laux's case presents a "narrow gap". The parallel requirements
exception should apply to her case:
1) Laux claims a cause of action under state-law claims against a medical device
manufacturer, based on duties that parallel federal requirements, that are not
expressly preempted by the Medical Device Amendments ("MDA"), 21 U.S.C. 360
et seq., to the Food, Drug, and Cosmetics Act ("FDCA"), 21 U.S.C. 301 et seq., as
Laux alleges the manufacturer of her implants violated, thereby would adequately

tS

plead parallel state-law claims under 21 U.S.C. 360k(a) and 21 C.F.R. 808.1(d),
that the alleged conduct of Mentor violated the FDCA.
Laux has alleged, Pursuant to 21 U.S.C. 360k(a) and 808.1(d), Exemptions From
Federal Preemption of State and Local Medical Device Requirements. App. 182183. The above citing on 21 U.S.C. 360k(a) and 808.1(d) are filed in district
courts records under Laux's Memorandum of Points and Authorities in Support of
Motion for Leave to Amend Complaint, Pursuant to FED.R. Civ. P. 15(a)(2), and
Fed.R. Civ. P.8(a), Twombly/lqbal pleadings with additional facts that Laux has
identified to be added to her complaint]. App. 174-186.
In addition, the Mentor valve orifices and valve caps with scar capsule tissue
entrapped inside the valves, were not manufactured in accordance with general
device federal requirements under specific CGMPs 820.1(c), 820.72-820.90. App.
55.

Plaintiff Laux's complaint alleges that the Mentor saline breast implants had

failed to comply with section 21 C.F.R. 820.90 regarding nonconforming products,
and that the product implanted in plaintiff Laux failed to comply with product
specifications as approved by the FDA through the premarket approval process.
Said defects violated Mentor's duties, which shows a violation of federal law,
which parallel state law claims. See Bausch v. Stryker Corp, 630 F.3d 546 (7th Cir.
2010)(citing 21 C.F.R. 820.1(c), 820.72-820.90). App. 55 and App. 212-227.
■2(,

2) Ms. Laux's has claimed a cause of action under state law independent of the
FDCA.

Restatement (Second) of Torts, 402A.

App. 55. Laux alleges that the

defective condition of the Mentor Silicone Inflatable Saline-Filled breast implants
are unreasonably dangerous.
Certiorari on conflicts between circuit courts is granted as of course only on
narrow issues.
There is reasonable probability the Supreme Court will grant certiorari because
one of the key hallmarks of an issue the Court is likely to consider sufficiently
important is that it is recurrent and has generated directly conflicting rulings by
the federal courts of appeals.

Such conflicts, by undermining the desired

uniformity of federal law, are often considered to merit resolution by the
Supreme Court because, absent such review, they will persist, having been
decided by courts whose rulings are otherwise definitive within their territorial
jurisdiction absent Supreme Court review.
1) The unresolved Circuit split is a compelling reason to support granting the
petition for writ of certiorari. Supreme Court Rule 10(a)(c).
2) Ms. Laux's petition should sufficiently meet the requirements of a "Narrow
Gap", which should warrant granting the petition for writ of certiorari.

n

3) Ms. Laux's petition is of national importance, which should warrant Supreme
Court review. The Implant valves leaked without a rupture or deflation. Without
a rupture or deflation of breast implants, a consumer is not alerted to seek
medical assistance. This puts a consumer in an unreasonably dangerous medical
condition.

The alleged defective condition of the implant valves become

automatic cycles of filling and releasing of fluids without signs of rupture or
deflation.

Ingress and egress of fluids

through the implant valves, allows

consumer's scar tissue to become entrapped inside the implant valves, reaching
deeply into the valve orifices. This is of urgent national importance for others
who may have saline breast implants with valves.

n

CONCLUSION
The

petition for a writ of certiorari should be granted for reasons in the

aforementioned: (1) Circuit Split
(2) Narrow Gap
(3) National Importance
Plaintiff/Appellant/Petitioner Anita Laux, Pro Se, was denied her entitlement to
amend complaint, zero previous amendments.

Laux requests justice to be

impartial, for the Supreme Court to have Laux's case heard at least once, before it
is totally dismissed. Especially, since Petitioner Laux's 9th Cir. appeal was ruled
non-frivolous.
Respectfully submitted,

11'b 1o%o
Anita Laux, Pro Se
Attorney for Petitioner
P. 0. Box 7212
Westlake Village, CA 91359
(805) 443-9909
July 13, 2020

V\

